November 23, 2010

DREW T. ALIPERTO
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT: Audit Report – Marysville, CA Processing and Distribution Facility
         Consolidation (Report Number NO-AR-11-002)

This report presents the results of our audit of the consolidation of mail processing
operations from the Marysville, CA Processing and Distribution Facility (P&DF) to the
Sacramento Processing and Distribution Center (P&DC) (Project Number
10XG050NO000). The report responds to a congressional request. Our objectives were
to assess the operational impacts of the consolidation and compliance with established
Area Mail Processing (AMP) policies. This audit addresses operational risk. See
Appendix A for additional information about this audit.

An AMP consolidation involves moving all originating and/or destinating mail from one
or more facilities into other processing facilities to improve operational efficiency and/or
service. The Postal Service fully implemented this consolidation on June 19, 2010.




                           Illustration 1: Marysville, CA P&DF
Marysville, CA Processing and Distribution                                                         NO-AR-11-002
 Facility Consolidation


Conclusion

We assessed the operational impacts of the consolidation1 and determined that a valid
business case existed for consolidating mail processing operations from the Marysville
P&DF into the Sacramento P&DC. Additionally, the Postal Service followed established
AMP policies and guidelines. Our analysis showed:

        The Sacramento P&DC had the capacity to process Marysville P&DF volume.

        The consolidation increased efficiency.

        No career employees were laid off as a result of the consolidation.

        Service improved and mail delays were reduced.

        Agricultural inspections were reassigned to the Sacramento P&DC.

        Environmental impacts were minimized through transportation reductions.

        Contingency plans for emergencies were in place.

Because our findings support the consolidation, we are not making any
recommendations. Management agreed with this report but chose not to comment since
there were no recommendations. See Appendix B for our detailed analysis of this topic.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

        E-Signed by Robert Batta
    VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    David E. Williams
    William D. Hodson

1
 We compared workhour trends, delayed mail and External First Class Mail service scores for a three-month period
after the consolidation to the same period last year (Quarter 4 of FY 2009 to Quarter 4 of FY 2010.)


                                                        2
Marysville, CA Processing and Distribution       NO-AR-11-002
 Facility Consolidation


     Barbara Plunkett
     Larry Munoz
     Corporate Audit and Response Management




                                             3
Marysville, CA Processing and Distribution                                                      NO-AR-11-002
 Facility Consolidation


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is facing one of the most difficult challenges in its history. There has
                                               ®
been a continual decline in First-Class Mail (FCM) volume over the past decade. Mail
volume declined by more than 25 billion pieces during 2009, resulting in a net loss of
$3.8 billion. In the first three quarters of FY 2010, the volume decline was approximately
6.6 billion pieces and a net loss of $5.4 billion.

Although the Postal Service reduced expenses by nearly $6 billion in FY 2009, it has
not been sufficient to offset the decline in mail volume revenue and the rising cost of
workers’ compensation and retirement costs. In testimony before Congress,2 the U.S.
Government Accountability Office (GAO) recommended that the Postal Service take
urgent action to streamline the mail processing and retail networks, as it no longer has
sufficient revenue to cover the cost of maintaining its large network of processing and
retail facilities. The GAO also stated it was necessary for the Postal Service to consider
whether it was cost-effective to retain underutilized facilities and to take action to right
size its network.

Title 39, U.S.C. Part 1, Chapter 1, §101, states that the Postal Service “. . . shall provide
prompt, reliable, and efficient services to patrons in all areas . . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal and Accountability Enhancement Act, P.L.109-435-December 20,
2006, Title II, highlights “. . . the need for the Postal Service to increase its efficiency
and reduce its costs, including infrastructure costs, to help maintain high quality,
affordable postal services. . . . ”

This audit report responds to a request from Dianne Feinstein, United States Senator
(CA), to address concerns raised by the Boards of Supervisors of Yuba and Sutter
counties. Concerns included the following:

       Ability of the Sacramento P&DC to handle the workload.

       Performance of the Sacramento P&DC.

       Employee layoffs.

       Continuation of agricultural inspections.

       Environmental impact of increased transportation.

       Operation continuity for natural disasters such as floods.

2
 GAO-09-475T, Testimony before the Subcommittee on Federal Workforce, Postal Service, and the District of
Columbia, Committee on Oversight and Government Reform, House of Representatives, dated March 25, 2009.


                                                      4
Marysville, CA Processing and Distribution                                      NO-AR-11-002
 Facility Consolidation



The Marysville P&DF AMP involved consolidating both originating and destinating mail
processing operations (ZIP Code 959) into the Sacramento P&DC (ZIP Codes 942 and
956 through 958). All of these facilities are located in the Sacramento District within the
Pacific Area. The Postal Service fully implemented the consolidation on June 19, 2010.
See Chart 1 for consolidation map.

                                   Chart 1: Consolidation Map




OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess operational impacts of the consolidation and compliance
with established AMP policies. We evaluated efficiency gains, capacity, and impact on
employees, customer service, transportation, cost savings, and the AMP processes.

We reviewed historical data for the Marysville P&DF and Sacramento P&DC from
January 1, 2008, to December 31, 2008 to confirm data on the AMP worksheets. We
also reviewed data from July 1, 2009, to September 30, 2010, to analyze mail
processing operations and efficiencies before and after the consolidation. We visited the
Marysville P&DF and Sacramento P&DC to conduct interviews and observations the



                                               5
Marysville, CA Processing and Distribution                                  NO-AR-11-002
 Facility Consolidation


weeks of September 13 and 20, 2010. We interviewed Postal Service officials and
employees and reviewed applicable guidelines, including Handbook PO-408.

We used computer-generated data from the following systems to analyze workhours,
mail volume, staffing, service, transportation, and maintenance.

       Activity-Based Costing.

       Enterprise Data Warehouse.

       Web End of Run Application.

       Service Standard Directory.

       Web Complement Information System.

       Customer Service Measurement System.

       Customer Experience Measurement System.

We assessed the reliability of computer-generated data by interviewing Postal Service
officials knowledgeable about the data. We determined that the data were sufficiently
reliable for the purposes of this report.

We conducted this performance audit from August through November 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on October 28, 2010, and included
their comments where appropriate.




                                             6
  Marysville, CA Processing and Distribution                                                NO-AR-11-002
   Facility Consolidation


  PRIOR AUDIT COVERAGE

                                                 Final
                               Report
      Report Title                              Report                      Report Results
                               Number
                                                 Date
Area Mail Processing        EN-AR-09-001       2/4/2009    The Postal Service improved communication
Communication                                              and management has generally addressed prior
                                                           audit recommendations. We recommended
                                                           several methods of further increasing
                                                           stakeholder notification, including exploring
                                                           electronic methods. Management agreed with
                                                           our recommendation to add employee input
                                                           notifications, but disagreed with our
                                                           recommendation to explore additional
                                                           communication channels.
Canton Processing and       NO-AR-09-011       9/22/2009   It was a prudent decision to consolidate the
Distribution Facility                                      Canton P&DF’s outgoing mail processing
Outgoing Mail                                              operation into the Akron P&DC. We made no
Processing Operation                                       recommendations.
Consolidation
New Castle Processing       NO-AR-10-002       2/1/2010    It was a prudent decision to consolidate the New
and Distribution Facility                                  Castle P&DF outgoing mail processing
Outgoing Mail                                              operations into the Pittsburgh P&DC. The Postal
Processing Operation                                       Service could save more than $1.8 million
Consolidation                                              annually. We made no recommendations.
Lakeland Processing and     EN-AR-10-004       2/12/2010   There was a valid business case for the
Distribution Center                                        consolidation. It will increase efficiency, reduce
Consolidation                                              processing costs, and improve service. We
                                                           made no recommendations.
Manasota Processing         EN-AR-10-003       2/12/2010   We concluded there was a business case for
and Distribution Center                                    consolidating mail processing operations from
Consolidation                                              the Manasota P&DC to the Tampa P&DC. The
                                                           consolidation should increase efficiency, reduce
                                                           processing costs, and improve service. We
                                                           recommended the vice president, network
                                                           operations, ensure the implementation of
                                                           activities of P&DC consolidation begin
                                                           immediately after area mail processing proposal
                                                           approval and require headquarters' approval
                                                           when implementation is delayed more that 3
                                                           months. We also recommended the vice
                                                           president enable the automatic feed into the
                                                           Web Management Operation Data System for
                                                           Express Mail scanning operations.
Dallas Processing and       NO-AR-10-003       2/24/2010   A business case existed to support the
Distribution Center                                        consolidation. There was sufficient capacity and
Outgoing Mail                                              the potential to improve both customer service
Consolidation                                              and efficiency. The consolidation would affect a
                                                           limited number of employees and the Postal
                                                           Service could save $114 million over a 10-year
                                                           period. Management agreed with the
                                                           recommendations.




                                                     7
   Marysville, CA Processing and Distribution                                                 NO-AR-11-002
    Facility Consolidation


                                                  Final
                                Report
       Report Title                              Report                      Report Results
                                Number
                                                  Date
Consolidation of the Lima    NO-AR-10-007       7/2/2010    A business case existed to support consolidating
P&DF Mail Operations                                        the Lima P&DF’s mail operations into the Toledo
Into the Toledo P&DC                                        P&DC. Because of this consolidation, the Postal
                                                            Service will save $1.8 million during the first year
                                                            and $2.3 million during subsequent years.
                                                            Management agreed with the recommendations.

Charlottesville              NO-AR-10-008       8/3/2010    A valid business case existed for the
Processing and                                              consolidation. There was sufficient capacity as
Distribution Facility                                       well as the potential to improve customer service
Consolidation                                               and efficiency. No career employees were laid
                                                            off as a result of the consolidation, and the
                                                            Postal Service could save $6.5 million annually.
                                                            We made no recommendations.
Review of Wilkes-Barre,      NO-AR-11-001       10/4/2010   A valid business case existed for the
PA Processing and                                           consolidation. There was capacity as well as the
Distribution Facility                                       potential to improve customer service and
Consolidation                                               efficiency. No career employees were laid off as
                                                            a result of the consolidation, and the Postal
                                                            Service could save $5.2 million annually. We
                                                            made no recommendations.




                                                      8
Marysville, CA Processing and Distribution                                          NO-AR-11-002
 Facility Consolidation


                                    APPENDIX B: DETAILED ANALYSIS

Capacity

Ample capacity exists at Sacramento P&DC to process mail volumes from the
Marysville P&DF. We found that:

          The Sacramento P&DC has the annual capacity to process an additional 487
           million mailpieces on its existing machinery.

          The increase in mail volume at the Sacramento P&DC from the Marysville P&DF
           would be about 247 million first-handled pieces (FHP)3 based on FY 2009
           volumes or approximately 16 percent of the current volume handled by the
           Sacramento P&DC.

          The Sacramento P&DC experienced a decline of 216 million pieces (12 percent)
           from FYs 2007 to 2009. This decline in mail volume will assist in offsetting the
           increase in mail volume received because of the consolidation.

To help process this increased mail volume, after the consolidation, the Sacramento
P&DC gained 69 craft positions, a 5 percent increase in staffing. In addition, the
Sacramento P&DC acquired the following equipment:

          Four additional Delivery Barcode Sorters (DBCS).

          Two Delivery Input Output Sub-Systems.

          Two DBCSs with Output Sub-System capabilities.

          One Remote Input Output Sub-System.

          One Automated Flat Sorter Machine.

We found adequate floor space was available to accommodate this additional
machinery at the Sacramento P&DC.

Efficiency

The Sacramento P&DC improved productivity from FY 2007 to FY 2010. Specifically,
Sacramento’s FHP productivity improved from 789 pieces per hour (PPH) to 1,027 PPH
from FY 2007 to FY 2010.4 This increase represents an improvement of 30.24 percent
as compared to the national average increase of 22.46 percent. See Table 1 for specific
information.


3
    Mail volume recorded into the operation where it receives its first handling.
4
    Based on preliminary FY 2010 data



                                                              9
Marysville, CA Processing and Distribution                                      NO-AR-11-002
 Facility Consolidation


                      Table 1: Pieces Per Hour Productivity Trending




Based on Quarter 4 FY 2010 data, efficiency continued to improve. The Sacramento
P&DC used 40,740 (or 9.3 percent) fewer total workhours to process combined mail
volumes during Quarter 4, FY 2010 compared to the workhours used by both facilities in
the same period last year. The Postal Service is on target to realize the workhour
savings projections.

In addition, processing costs were also significantly reduced. The cost to process 1,000
mailpieces at the Sacramento P&DC before the consolidation, in Quarter 4, FY 2009,
was $85.59, and dropped to $82.05 after the consolidation in Quarter 4, FY 2010. This
represents a cost reduction of 4 percent.

Employee Impact

At the time of the consolidation of Marysville P&DF mail processing operations into the
Sacramento P&DC, there were 114 craft and five management employees to reassign.
Of these:

       Eight craft employees retired and two others left the Postal Service.

       Nine craft employees volunteered to transfer to other areas.

       Fifteen craft employees were reassigned to the Marysville Post Office.

       Management reassigned 46 craft and four management employees to the
        Sacramento P&DC.



                                             10
Marysville, CA Processing and Distribution                                                           NO-AR-11-002
 Facility Consolidation


        Management assigned 34 craft and one management employee to other local
         facilities.

Management followed procedures outlined in the national agreements between the
Postal Service and the impacted unions, including notifying unions and employees.
Employees impacted by the consolidation were reassigned, retired, or selected
relocation. Consequently, no full-time employees lost jobs.

Customer Service

The consolidation of mail processing operations, which took place before Quarter 4, FY
2010, has not adversely affected service scores. We found that External First-Class
Measurement (EXFC)5 scores for the Marysville and Sacramento service areas have
improved since the consolidation. Both areas now served by the Sacramento P&DC
have shown improvements in all three categories of EXFC testing.6 Service scores for
Sacramento are comparable to Pacific Area and national results. See Table 2 for
comparison.

                                          Table 2: EXFC Scores

                                                   Overnight
                                                 FY2009 QTR 4                      FY 2010 QTR 4
        Marysville                                     93.15                             93.24
        Sacramento                                     96.06                             96.31
        Pacific Area                                   95.83                             96.59
        National                                       96.33                             96.72
                                                    Two Day
                                                 FY2009 QTR 4                      FY 2010 QTR 4
        Marysville                                     91.64                             94.94
        Sacramento                                     95.58                             95.59
        Pacific Area                                   95.26                             96.16
        National                                       94.83                             94.93
                                                   Three Day
                                                 FY2009 QTR 4                      FY 2010 QTR 4
        Marysville                                     88.59                             91.65
        Sacramento                                     92.01                             94.10
        Pacific Area                                   93.28                             94.51
        National                                       93.68                             93.70


5
  A test an independent contractor performs to measure the time it takes mail to go from mailbox to delivery point.
6
  Changes are made to the EXFC testing only at the start of a quarter. The delivery standards changed for Marysville
at the start of Quarter 1, FY 2011. In Quarter 4, FY 2010, the old delivery standards were still in place and EXFC
testing continued as if the mail was being sorted in Marysville.


                                                         11
Marysville, CA Processing and Distribution                                                                NO-AR-11-002
 Facility Consolidation


There were delivery service standards7 changes for all categories of mail. There were a
total of 1,790 upgrades and no downgrades.8 In addition, concerning the Postal Service
                                 ®
premier services of Priority Mail and FCM, there were 69 upgrades with no
downgrades. For example, FCM from Marysville to Oakland is delivered overnight,
whereas the Postal Service provided 2-day service before the consolidation. Table 3
shows the number of service standard changes by class of mail.

                                   Table 3: Service Standard Impacts

                                          Service Standard Impacts
                                       Upgrades              Downgrades                 Net Change
            Priority                        56                       0                        56
            FCM                             13                       0                        13
            Periodicals                    791                       0                       791
            Standard                       922                       0                       922
            Packages                         8                       0                         8
            Total                         1,790                      0                      1,790

Additionally, there were no changes to local mailbox collection times or business mail
entry unit operations because of the consolidation. The Marysville postmark remains
available at the local post office upon request.




       Illustration 2: The Marysville postmark is
          available at the Marysville Post Office




Delayed Mail

Despite an increase in FHP volume of more than 40 million pieces, Sacramento P&DC
decreased their delayed processing volume. Specifically, during Quarter 4, FY 2009, the
Sacramento P&DC had 9.4 million delayed mail pieces or 2.5 percent of FHP volume.
Following the consolidation, delayed mail for Quarter 4, FY 2010, was 6.4 million pieces
7
  Delivery service standards are the expectation of the Postal Service to deliver a mailpiece to its destination within a
prescribed number of days following proper deposit by a customer.
8
  An upgrade is a reduction in the number of days scheduled for delivery of a piece of mail, while a downgrade is an
increase in the number of days scheduled for delivery of a piece of mail.


                                                           12
Marysville, CA Processing and Distribution                                             NO-AR-11-002
 Facility Consolidation


or 1.5 percent of FHP volume. This represents a decline in delayed processing volume
of 32.3 percent. See Table 4 for additional information.

                        Table 4: Sacramento P&DC Delayed Volume

                                             Quarter 4, FY 2009   Quarter 4, FY 2010
             Total FHP Volume                   371,731,475          412,587,454
             Total Delayed Volume                9,403,704            6,362,854
             Total Delayed Mail as
                                                   2.5%                 1.5%
             a Percentage of FHP

Overtime

Overtime remained consistently low at the Sacramento P&DC. Before the consolidation,
during Quarter 4, FY 2009, the Sacramento P&DC used less than 1 percent overtime.
During Quarter 4, FY 2010 overtime increased to 2.82 percent, still well below the
national overtime rate of 6.13 percent.

Cost Savings

Cost savings from the consolidation result primarily from a reduction in workhours,
offset by one-time costs associated with the elimination of the Marysville P&DF. In the
Marysville P&DF AMP proposal, the Postal Service calculated cost savings using
standard AMP worksheets. We reviewed the Postal Service’s AMP worksheets for
accuracy and completeness and generally agreed with their calculations.

The workhour reduction of 55 craft and five management employees will result in a
savings of $4,076,264 annually. The Postal Service had predicted an increase in
transportation costs of $499,683. However, through consolidation of highway contract
routes, renegotiating lower rates, and terminating high cost routes, transportation costs
should decrease by $800,137. These reductions also eliminated 859,324 miles from
transportation, providing a positive environmental impact.

The Postal Service will incur three one-time costs during the first year of the
consolidation:

       Employee Relocation – The cost to relocate employees that meet eligibility
        requirements, as outlined by the union contract, to new job assignments.

       Equipment Relocation – The cost of relocating additional mail processing
        equipment to the Sacramento P&DC to support the consolidation.

       Facility Cost – The cost associated with preparing the Marysville P&DF for sale.

See specific details of the costs and savings in Table 5:



                                                     13
Marysville, CA Processing and Distribution                                                     NO-AR-11-002
 Facility Consolidation


                                Table 5: Cost Savings Breakdown

                                                           AMP Projected            Current
                                                             Annual                Projected
                                                             Savings             Annual Savings
        Mail Processing Craft Workhours                          $3,366,526             $3,366,526

        Non-Mail Processing Craft Workhours                        $202,611               $202,611

        PCES/EAS Savings9                                          $507,127               $507,127

        Subtotal – Employee Workhour Savings                     $4,076,264             $4,076,264

        Transportation                                           ($499,683)               $800,137

        Maintenance                                              $1,521,949             $1,521,949

        Employee Relocation *                                    ($292,378)             ($292,378)

        Equipment Relocation *                                   ($136,692)             ($136,692)

        Facility Costs *                                           ($50,000)              ($39,225)

        Subtotal – Other Savings                                   $543,196             $1,853,791

        Total Cost Savings                                       $4,619,460             $5,930,055
        *One Time Costs

AMP Process

The Postal Service completed the AMP process within prescribed timeframes
established in AMP guidelines. In addition, the Postal Service performed the notice of
initiation of the feasibility study involving the Marysville P&DF, completion of the study,
and approval of the consolidation in accordance with AMP guidelines and the AMP
Communications Plan. Specifically:

       At the initiation of the feasibility study, the Postal Service notified employees
        (through Newsbreaks10 and service talks), local union officials, national unions
        and management associations, local state congressional offices, mailers, and
        local media. This was the first step in soliciting public comments.

       Upon completing the feasibility study and submitting it to the area vice president
        (AVP) for consideration, the Postal Service held a public meeting to explain the
        consolidation proposal and its findings and address public and employee
        concerns.


9
  Postal Career and Executive Service (PCES) and Executive and Administrative Schedules (EAS) are management
employees.  
10
   Newsbreaks are an internal channel of communications for employees.


                                                     14
Marysville, CA Processing and Distribution                                                  NO-AR-11-002
 Facility Consolidation


          Concerns and comments were included with the transmittal of information to the
           area vice president for consideration. As Table 6 shows, the timeline of events
           supports that the process was inclusive and provided stakeholders a forum to
           voice concerns for consideration by the Postal Service.

                                       Table 6: Timeline of Events

                                                                                   In Compliance with
                                                                                       Handbook
                  Timeline for Public Transparency
                                                                                     PO-408 and the
                                                                                  Communication Plan
Notified AVP of intent to conduct a feasibility study.                                   Yes
Notified Senior Vice President (SVP), Operations of intent
                                                                                         Yes
to conduct a feasibility study.
Notified stakeholders of the intent to proceed with study.                               Yes
Completed feasibility study within 2 months11 of the
                                                                                         Yes
notification of intent to conduct the study.
Area and Headquarters reviewed the feasibility during the 2
                                                                                         Yes
month period.
District manager completed feasibility study and submitted
                                                                                         Yes
it to area vice president.
District held public meeting within 45 days after submitting
                                                                                         Yes
study to AVP.
Gave the public 15 additional days to provide written
                                                                                         Yes
comments.
When approved, the AVP signed the approval page and
                                                                                         Yes
forwarded to the SVP, Operations within 2 weeks.
Office of Vice President and Consumer Advocate reviewed
                                                                                         Yes
AMP.
SVP reviewed public input and costs and made final
                                                                                         Yes
decision within 2 weeks of receipt.
Notified stakeholders of final decision.                                                 Yes

Agricultural Inspections

Before consolidation, the Marysville P&DF provided for agricultural inspection of
packages destined for eight counties in Northern California. Effective November 1,
2010, the Sacramento P&DC will provide space for these inspections. On average,
these inspections involve approximately five packages per day containing plant matter.
Inspection of these packages should not have an impact on timely delivery of the
packages.


11
     The manager, network alignment implementation, granted a 2-week extension.


                                                        15
Marysville, CA Processing and Distribution                                    NO-AR-11-002
 Facility Consolidation


Flood Risks

The contingency plan covers risks of floods or any natural disaster for the Postal
Service facility affected. The Sacramento P&DC contingency plan designated the
Oakland P&DC as the primary back-up facility. If a natural disaster occurs, the area
office would establish a command center and divert mail to the backup facility. The
Postal Service demonstrated its ability to respond quickly to disasters in their response
to Hurricane Katrina, which destroyed several Postal Service facilities.




                                             16
